No: 19In The

19-380

Supreme Court oE the United State

FILED
SEP 09 2019

Alfred Lam; Paula Leiato, et aC.,
{Vetitioners-(pCaintiffs,
v.

City & County of San Francisco; et af.,
San Francisco Juvenile Probation Department,
(Respondents-(Defendan ts,

On Petition for Certiorari to the United States Supreme
Court from the Court.of Appeals for the Ninth Circuit

Ninth Circuit Court No: 16-15596
U.S.D.C. No: 4:10-cv-04641 PJH
Northern District of California

PETITION FOR A WRIT OF CERTIORARI
Alfred Lam, Paula Leiato
(P.0. ‘Sox. 16376,
San ‘Francisco, CA 94116
(415)992-0071
In (Pro (Per
Page 1

RECEIVED
SEP 1 2 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTIONS PRESENTED
This case poses multiple questions due to on­
going and continuous instances of conduct rising to a
level of discrimination, harassment, intimidation, and
retaliation litigation proceedings back to 2005
throughout 2019. Petitioners have originally filed a
legal action in U.S. District Court in October 10, 2008
(see related case).
1. May a federal court ever grant a motion for relief
from judgment under Federal Rule of Civil procedure
60(b) in a case involving legal error?
2. Whether the district court erred in denying pro se
plaintiffs’ “motion for leave to amend” arising from
“newly discovered evidence” and “continuous and on­
going” instances of discrimination, harassment,
intimidation, and retaliation?
3. Whether the Ninth Circuit’s decision conflicts with
its own and this Court’s precedents?
4. Whether petitioners have satisfied discrimination,
harassment, intimidation, and retaliation aspects
giving rise to a “hostile work environment claim”?
5. Is statistical data produced by petitioners-plaintiffs
clearly supporting “disparate treatment” or “selective
treatment” by opposing party admissible in federal
court?
6. Does this case provide a direct opportunity to settle
an issue of public interest and matter of public
concern?

Page 3

PARTIES TO THE PROCEEDING
1) Alfred Lam, Paula Leiato, et aC.,
<Pe titioners-PCain tiffs,
2) City & County of San Francisco, et aC.,
San Francisco Juvenile Probation Department,
Respondent-Defendants,
In addition to the parties identified in the caption,
respondent-defendants also include Toni RatcliffPowell, individually and in her official capacity as
Director

of SF

Juvenile

Hall;

Dennis

Doyle,

individually and in his official capacity as Assistant
Director of SF Juvenile Hall; John Radogno, Timothy
Diestel, Tamara Ratcliff, Alfred Fleck, Mildred Singh,
Robert Taylor, Charles Lewis, individually and in
their official capacities as a “Supervisory Employees”
of SF Juvenile Hall of San Francisco Juvenile
Probation Department.

Page 4

RELATED CASES
1) Alfred Lam, Paula Leiato, et aC., v. City & County
of San Francisco, et aC; San Francisco Juvenile
Probation Department; No: 17-15208 Ninth Circuit
Court of Appeal, currently pending writ of certiorari.

2) Alfred Lam, Paula Leiato, et aC., v. City & County
of San Francisco, et aC, San Francisco Juvenile
Probation Department; No: 16-16559 Ninth Circuit
Court of Appeal, currently pending writ of certiorari.

Page 5

TABLE OF CONTENTS
QUESTIONS PRESENTED...........

3

PARTIES TO THE PROCEEDING

4

RELATED CASES...........................

5

TABLE OF CONTENTS

6

TABLE OF APPENDICES

7

TABLE OF AUTHORITIES

8

PETITION FOR WRIT OF CERTTIORARI

12

OPINION BELOW.

12

JURISDICTION.

12

STATEMENT OF THE CASE.................. ................ 13
A. Statutory Background..................................... 13
1. Introduction................................................. 13
2. The Misconduct Perpetrated by the
Respondents (Government Agent)............. 15
3. The Facts of Harassment, Discrimination,
Retaliation from Petitioners’
Supervisors.................................................. 17
4. Multiple Erred by District Court.............. 19
B. District Court Proceedings............................... 24
C. Ninth Circuit Proceedings................................ 24
REASON FOR GRANTING PETITION;

26

ADDITIONAL CONSIDERATIONS

41

CONCLUSION

49
Page 6

APPENDICES
Appendix A: 9th (Ninth) Circuit Court
Memorandum on 3/18/2019................

53

Appendix B: U.S. District Court’s Motion
Of Summary Judgment and dismissed case
on 3/7/2016..........................................................

57

Appendix C: U.S. District Court Denying
Motion for Reconsideration on 7/18/2016

97

Appendix D: 9th (Ninth) Circuit Motion for
Reconsideration Decision on 4/19/2019....

101

Appendix E: U.S. District Court Order Denying
Motion for Leave to Amend Complaint on
5/11/2015.................................................................. 103
Appendix F: “Protected Activities” by Petitioners
between January 1, 2010 to December 31,
111
2012
Appendix G: Equal Employment Opportunity
Commission Enforcement Guidance............... 118

Page 7

TABLE OF AUTHORITIES
Cases
jQ.6ecfv. ‘Western Dental
43
2018 23 Cal.App.5th 726,740............................
(Burfington Northern d Santa Ee Ry. Co. v. White,
548 U.S. 53, 70 (2006)........................................ 31, 32
Cooter Cjeffv. Nartmary Corp.

43
(1990) 496 U.S. 384, 405....................................
(Dawson v. Enteh^Internationaf,
30
630 F.3d 928, 937 (9th Cir. 2011).....................
Dougfas v. CA Dept of‘Youth Authority,
28
271 F.3d 812 (9th Cir. 2001).............................
fEspinoza v. Tarah Mfg. Co.,
31
414 U.S. 86, 94 (1973)........................................
Earagherv. City of(Boca (Raton
524. U.S. at 810 (1998)...................................... 30, 31
(Forman v. Davis,
29
371 U.S. 178, 182 (1962)....................................
■ Eoyv. (Baftimore City (Pofice Dept.
(4th Cir. 2000) 201 F.3d 526.............................
Eurnco Constr. Corp. v. Waters,

43

438 U.S. 567,577 (1978).....................................
Cjarofafo v. ViCC. ofNaze f Crest,

43

754 F.3d 428 (7th Cir.2014)..............................
generalEfec. Co. v. Cjifhert,
429 U.S. 125, 142 (1976)....................................
QJR^Invs., Inc. v. City of (Escambia,
132 F.3d 1359, 1369 (11th Cir.1998)................
§riggs v. Duke Dower Co.,

42

401 U.S. 424, 436 (1971)..............................
Page 8

49

31
29

Harris v. Porhfifi Systems, Inc.,
510 U.S. 17 (1993)..............................................
I6ar6ia v. (Regents of "University of California
(1987) 191 Cal.App.3d 1318..............................
Int'C(Brotherhood ofTeamsters v. "UnitedStates,
431 U.S. 324 (1977)............................................
Jahurehjv. Toxx
(7th Cir. 2016) 813 F3d 626..............................
Johnson v. (Jen. (Bd. of(Pension H, Health (Benefits,
733 F.3d 722 (7th Cir. 2013).............................
Johnson v. Lucent (Technologies Inc.
653 F.3d 1000 (9th Cir. 2011)............................
ToCpahchi v. Principt
(5th Cir. 2004) 113 Fed. Appx. 633................
Levanderv. (Pro6er,
180 F.3d 1114, 1120 (9th Cir. 1999).................
Lewis v. City of "Union City, Cja.
(11th Cir. 2019) 918 F.3d 1213........................
McDonnell(Douglas Corp. v. fieen
411 U.S. 792, 802 (1973)................................. .
Me finest v. (JHE Service Corp.,

13
42
42
42
42
28
43
33
47
27

360 F.3d 1106, 1119 n.13 (9th Cir. 2004).......
Monitor Savings (Banh^ (FS(B v. Hinson,

30

All U.S. 57, 65 (1986)........................................
National(R.R, Passenger Corp. V. Morgan,

31

536 U.S. 101 (2002)............................................
OncaCe v. Sundoener Offshore Services,

32

523 U.S. 75 (1998).............................................. 13, 31,
O NeiC v. JUT T Corp,
Page 9

(5th Cir. 2000) 208 F.3d 1007.......................
(Parffane Hosiery Co., Inc. v. Shore
(1979) 439 U.S. 322.........................................
(Perez v. WeCCs ‘Fargo Banh^ HA(N.D. Cal. 2018) 2018 WL 3872793.............
(Pumphrey v. %W. Thompson Tool Co.,
62 F.3d 1128, 1133 (9th Cir.1995)...............
Patti v. City and County ofSun Francisco,
1992 WL 281386 (N.D. Cal. 1992)...............
Piomiv. City ofAtlanta, Qa.,
520 F.3d 1269, 1280 (llth Cir. 2008).........
Peno v. CuthoCic SocialServices
(1993) 509 U.S. 43...........................................
Pp6inson v. SheftOitCo.,
519 U.S. 337 (1997)........................................
Skidmore v. Swift Co.,
323 U.S. 134, 140 (1944)................................
Tahorv. Hifti, Inc.
(10th Cir. 2013) 703 F.3d 1206.....................
Texas (Dept, of Community Affairs v. (Burdine,

43
45
43
26
41
47
43
32
31
43

49
450 U.S. 248 (1981).........................................
Vance v. (BaftState "University,
133 S. Ct. 2434 (2013).................................... 18, 32, 35
Wards Cove v. Atonio,
490 U.S. 642 (1989)........................................
Whole Woman's Health v. Hefterstedt

46, 47

(2016) 136 S.Ct. 2292, 2305..........................
Wynn v. National (Broadcasting Co., Inc.

45

(C.D. Cal. 2002) 234 F.Supp.2d 1067, 1098

43

Page 10

STATUTES
Title VII of the Civil Rights Act of 1964
42 U.S.C. § 1981 Retaliation claims......
42 U.S.C. § 2000e-3(a)..............................

28

MISCELLANEOUS:
[Model Rules of Prof 1 Conduct r. 3.3 (AM. BAR Ass’n
15

1983)]

ll(We must always take sides. Neutrality kelps tke oppressor;
never tke victim. Silence encourages tke tormentor, never
tke tormented. "Elie Wiesel, Nobel Peace Prize
39
1986
Equal Emp’t Opportunity Com’n, Enforcement
Guidance Vicariuos Employer Liability for Unlawful
Harassment by Supervisors (1999), 1999 WL
Appx. G
33305874
RULES AND SECONDARY AUTHORITY
Fed.R.Civ.P. Rule 60(b)............................................... 26
Fed.R.Civ.P. Rule 60(b)(3)............. ............................. 26 .
The Equal Employment Opportunity Commission
Appx. G
(“EEOC”) guidelines

Page 11

PETITION FOR WRIT OF CERTTIORARI
This petition maybe unprecedent for this Court
and even the various Circuits. The is an untypical
claim of discrimination, harassment, intimidation,
and retaliation in federal court resulting from the
petitioners being fired, terminated or constructively
discharged,
suspended,
denied
promotional
opportunities,
and
benefits
of employment.
Notwithstanding, the remaining petitioners are still
working for a muscling through adverse employment
actions by the respondents (City & County of San
Francisco) even though they were litigants since 2008
(see related cases) and the false allegations against
petitioners began in 2005 through and including 2019.
On appeal, the Ninth Circuit did not properly
examine nor give proper weigh to petitioners’ evidence
and totality of circumstances amounting to a
judgment rendered hastily against them. It appears
the Courts’ ruled these circumstances were
unimportant and would not have any impact upon
their judgment. This great Court should hold
otherwise.
OPINIONS BELOW
The opinion of the United States District Court
was rendered on March 7, 2016. The 9th Circuit
affirmed on March 18, 2019; Rehearing was denied on
April 19, 2019.
JURISDICTION
The Supreme Court has Article 3 Section 2
jurisdiction to review the decisions of the 9th Circuit
Page 12

and federal district courts. The Ninth Circuit had
jurisdiction pursuant to 28 USC §1291.
STATEMENT OF THE CASE
A. Statutory Background
The Court explained, “Title VII affords
employees the right to work in an environment free
from discriminatory intimidation, ridicule, and
insult.” Id, at 66. In Harris v. Tor^Cift Systems, Inc., 510
U.S. 17 (1993), and OncaCe v. Sundoener Offshore Services,
523 U.S. 75 (1998), the Court laid out the principle
requirements for a hostile work environment claim:
(1) that the race- or gender- based harassment be
“severe or pervasive”; (2) that a reasonable person in
the plaintiffs position would find the environment
either hostile or abusive; and (3) that the plaintiff
perceived it as such. Harris, 510 U.S. at 21-22.
1. Introduction
Both petitioners are Asian Pacific Americans
(“APA”) and pro se civil rights plaintiffs, working as
Juvenile Hall Counselors for the San Francisco
Juvenile Probation Department, City and County of
San Francisco.
Petitioners advanced discrimination, harassment,
intimidation, and retaliation claims based upon direct
and circumstantial evidence of disparate treatment
and its impact. The statistical data provided supports
petitioners’ claims. The racial composition at the
CCSF’s Juvenile Justice Center (“JJC”) or Juvenile
Hall (“JH”), where petitioners worked from 2008-2013
Page 13

is as follows; the Director is African American;
approximately 2/3 of the senior or mid-level supervisor
jobs are held by African Americans, approximately 2/3
of the low-level supervisor jobs are held by African
Americans, the majority of entry level counselors
similar like petitioners are African Americans, while
approximately 10% of these positions are held by APA
individuals. There have been no APAs in any of the
above supervisory positions for over the entire sixty (60)
year history ofJJC1During this long litigation process since 2008,
involving the related cases, the individual
respondents’ agents including multiple named
individual defendants (petitioner’s supervisor), who are
all non-APA. Their primary duties include: (1)
controlling petitioner’s daily work assignment; (2)
reporting disciplinary incidents to “management
employees” either disparate treatment or selective
treatment; (3) suggesting or recommending their
chosen employees to “management employees” for
“special assignment or promotional” purposes; (4)
discretionally granting overtime shift to selective
employees especially African American; (5) filling the
vacant shift, for those employee requesting “time-off’;

1 According to 2010 census data, the Bay Area’s race
demographics were as follows: White 52.5%, Black or African
American 6.7%, Asian 23.3%. San Francisco's demographics
were, similarly, White 48.5%, Black or African American 6.1%,
andAsian33.3%,http://www.bayareacensus.ca.gov/bayarea.htm.
The Asian population in San Francisco has risen slightly since
that time.

Page 14

(6) evaluating “employee’s performance” annually for
potential future promotional purposes, etc.
2. Misconduct Perpetrated by Respondents
(City & County of San Francisco and
Their Agents)
In 2015, Petitioners eventually discovered during
the litigation process that the respondents’ defense
strategy to these actions was riddled with misconduct
up to and including the entry of judgment on March 7,
2016.
a. This misconduct started with accepting Service
of Process well into the deposition process in 2015.
The respondents produced ten (10) witnesses of the
current case, including those individual defendants
listed in related case [USDC cv08’04702], [John
Radogno, Dennis Doyle and Toni Ratcliff-Powell], who
also produced the declarations or depositions to the
court back on 2011. The respondents’ agents during
the deposition process, denied they ever made the
declarations consisting of false allegations against
petitioners and fraudulent reports to support
respondents’ position. They consistently gave
deposition answers to prevent admission of facts and
further investigation into the matters questioned or
purposely gave false and misleading information and
testimonies.
b. In all adversarial proceedings, litigants have a
duty of full disclosure and honesty with the court.
[Model Rules of Prof. Conduct r. 3.3 (AM. BAR Ass’n
1983)]. During the entire discovery process the
respondents refused to provide any relevant
documents and answers to questions requested by
Page 15

petitioners unfairly leaving petitioners with almost no
relevant material facts to properly research viable
questioning before ten (10) scheduled depositions of
defendants/respondents on November, 2015.
c. Petitioners confirmed from the depositions of
respondents’ produced witnesses, the majority of them
(petitioners’ supervisors) testified that they had
admitted using such “inappropriate language”
themselves or heard such language in petitioners’
worksite without enforcing the respondents’ policy.
This clearly shows respondents filed false allegations
in using the same or similar inappropriate language
against only petitioner Leiato in retaliation for her
participating in “protected activities” on several
occasions, resulting in a total of more than thirty days
suspension without pay.
d. Petitioners confirmed that respondents,
including their attorneys of record, in related cases
[USDC cv08-04702] concealed, tolerated, and coveredup incidents from the district court judge regarding
use of excessive force, child abuse and neglect, and
child sexual abuse incidents inside San Francisco
Juvenile Hall which petitioners previously reported.
e. Petitioners confirmed from the depositions of
respondents’ produced witnesses that petitioner’s
supervisor Radogno instructed petitioner Lam to
clean-up human feces in a detainee’s room instead of
using the trained professional. Such directive was
way outside of petitioner Lam’s job description and
contravened CCSF and SEIU policies. This was done
for the sole purpose to belittle and humiliate Lam, as
well as, set an example to any other employees that
engage in protected activities.
Page 16

f.

During 2015-2016, Petitioners confirmed,
based upon at least four (4) witnesses, who had first­
hand knowledge and provided admissible written
evidence of declarations and depositions to the district
court, clearly showing the misconduct of “unclean
hands’’ of respondents (petitioners’ supervisors), such
as selective or disparate treatment and making
fraudulent allegations against petitioners.
g. During 2015-2016, petitioners confirmed that
nine out of ten witnesses produced by respondents, all
considered “public employees” and “Sworn CA Peace
Officers”, all denied the “code of silence” existed inside
the SF Juvenile Hall. They also denied “disparate or
selective treatment via discrimination, harassment,
intimidation, and retaliation towards APA (including
petitioners). However, all the material facts say
otherwise based upon “statistical data”, media
articles, credible public information, and petitioners’
four (4) produced witnesses.
h. Petitioners have filed numerous written
complaints (exercising their rights to engage in
protected activities) regarding discrimination,
harassment, intimidation, and retaliation between
2008 including the present to respondents’ relevant
agencies. However, no appropriate action was ever
taken other than Respondents’ conduct giving rise to
a level showing retaliation. (See Appendix F)
3. The Facts of Discrimination, Harassment,
Intimidation, and Retaliation from Petitioners’
Supervisor
Petitioners have meet and satisfied the standard
for disparate treatment (discrimination) as follows^
(l) Petitioners are a member of a protected category
Page 17

(APA); (2) Petitioners have suffered adverse
employment actions, not to mention, the stress,
aggravation, and uncertainty being subjected to such
actions; (3) Petitioners have suffered an array of
adverse employment actions because of his or her
membership in a protected classification.
Petitioners have met the standard to establish a
complaint of harassment as follows^ (l) Petitioners
are subjected to physical, verbal, or visual conduct of
the petitioner’s membership in a protected
classification; (2) the conduct is unwelcomed; and, (3)
the conduct is sufficiently severe or pervasive as to
alter the condition of the petitioners’ employment
putting them in bad light within the workforce thus
creating and maintaining an abusive work
environment.
Petitioners have meet the standard to establish
a complaint of retaliation as follows^ (l) Petitioners
engaged in a protected activity; (2) Petitioners
suffered an array of adverse employment actions! and,
(3) there was a causal link between the protected
activity and the adverse employment action. (See
Appendix F of timeline.)
In Vance v. (BaftState ^University, 133 S. Ct. 2434
(2013), this Court held that an employer is liable for
hostile work environment harassment by employees
who are not supervisors if the employer was negligent
in failing to prevent harassment from taking place.
Also relevant is evidence that an employer did not
properly monitor the workplace, failed to respond to
complaints, failed to provide a system for registering
complaints, or effectively discouraged complaints
Page 18

from being filed through retaliation or by other
methods. (See Appendix F)
4.

Multiple Errors by the District Court
During the litigation process, the district court
erred in this case as follows:
A. By limiting the alleged conduct from
February 22, 2010 to March 16, 2012 onCy,
even though the “newly discovered”
evidence” clearly indicated additional
allegations of discrimination, harassment,
retaliation
for
and
intimidation,
“protected activities”
participating in
occurring before, during and after the above
cut-off date improperly barred by the district
court. The district court also denied
petitioners’ request to amend the following
“protected classification” on or about May
11, 2015 [see Appendix E].
B. My condoning the following alleged mixed
motives
of
discrimination,
harassment,
intimidation, and retaliation which occurred
based upon “newly discovered evidence” either
before and during the period from February 22,
2010 to March 16, 2012, and numerous evidences
of post-filing incidents which were improperly
barred to litigate, such as follows- (l) On or
about March 11, 2010, Petitioner Lam’s
supervisor Luis Recinos, Lewis and RatcliffPowell intentionally placed Lam in a “high risk
and unreasonably tough” assignment without
providing timely and necessary trained staff
Page 19

members to assist Lam; (2) On or about April 5,
2010, Lam’s supervisor denied Lam’s earned
“sick pay” without merit or justification! (3) On
or about June 3, 2010, Lam was assigned by his
supervisors Lewis and Ratcliff-Powell to a
“tough and hazardous assignment” in a posted
position while Lam was recovering from a workrelated injury! (4) On or about February, 2011,
Lam submitted a request for earned time-off in a
timely manner for family matters. However, the
request was ignored without cause by his
supervisor including Ratcliff-Powell; (5) On or
about December 24, 2011, Lam was harassed by
his supervisor Fleck regarding Fleck demanding
a medical note from Lam’s sick day leave even
though Lam had no such restriction; (6) On or
about January 30, 2012, Lam received a written
notification of “sick leave restriction” without
merit from his supervisor, which negatively
impacted his future leave requests and placed
him in bad standing within his workplace! (7)
On or about October 11, 2012, Lam requested a
flexible working schedule due to FMLA reasons
which was denied by his supervisor RatcliffPowell; (8) On or about December 27, 2012, Lam
was granted only four hours of overtime shift
instead of eight hours. However, his non-APA co­
workers were getting multiple overtime shifts
between 12/21/2012 to 12/27/2012; (9) On several
occasions, Petitioner Lam’s supervisor Radogno
directed Lam to clean-up human feces which
were way outside of petitioner’s job description
both contrary to Respondent CCSF’s own
guidelines and SEIU policies! (10) Petitioners’
supervisors produced a plainly fraudulent
Page 20

original-and-cause report to blame both
petitioners included in alleged incident, which
constituted “child abuse and neglect” and “use of
excessive force” upon detainee minors by their
supervisors! (ll) Petitioner Lam’s supervisors
frequently assigned “high risk assignments” to
Lam such as, assigning him to solely guard a
“known MS-13 gangster”, who was alleged of an
attempted murder of a police officer in a
unsecured public setting (a hospital). Also on
another occasion Lam was given the assignment
of posting in the entrance area by himself, at
about the same time the department just posted
an alert based upon credible sources and
information that “a hit” might be targeting some
of the youth inside juvenile hall by a perpetrator
pretending to be a visitor; (12) Respondents
continuously
are
concealing,
protecting,
encouraging,
and
tolerating
multiple
respondents’ employees’ misconduct inside the
petitioners’ worksite at SF Juvenile Hall.
However, retaliation was inevitable whenever
the petitioners reported it.
(13) On or about July 20, 2010, during her
working hours, petitioner Leiato felt she was
having a heart attack or an anxiety attack. When
she requested “emergency leave” time-off, it was
denied by her supervisors Taylor and RatcliffPowell. At around the same time, another
Leiato’s co-worker, Ms. B who was an AfricanAmerican, was treated much better and quickly
allowed transport to the local hospital by
another employee. Petitioner Leiato was later
suspended for three days with multiple charger
including being AWOL; (14) Throughout 2009,
Page 21

petitioner Leiato’s requests for earned time-off
for vacation or sick leave were also denied by
Ratcliff-Powell without merit or justification;
(15) In retaliation for Leiato participating in
“protected activities”, on or about December 2,
2010, Leiato received
fraudulent charges
through a formal written reprimand of being
both “AWOL” and “insubordination” for making
her “medical appointment” which Leiato had
previous notified her employer about; (16) On or
about April 15, 2011, Leiato was denied
“overtime shift” opportunities, but not the other
similar situated non-APA co-workers with less
seniority; (17) On or about May 16, 2011, Leiato
called her Supervisor Y for permission to come to
work late due to her medical issue. Her request
was denied without merit and justification; (18)
On or about May 24, 2011, Leiato was told by her
Sup. Ratcliff-Powell that her further request of
“work-in-lieu” would be immediately denied
without merit or justification, while her nonAPA co-workers were treated more favorably
regarding the same issue! (19) On or about June
1, 2011, Leiato submitted a “leave request” for
“two hours” in timely manner to her immediate
for
her
relevant
medical
supervisor
appointment. However, the request was denied
by Sup. Ratcliff-Powell without merit or
justification while Leiato’s non-APA co-workers
were treated more favorably regarding the same
issue; (20) On or about June 8, 2011, Leiato
came to work in a timely manner at 6;00 a.m. At
around 10:17 a.m. Leiato experienced a severe
migraine headache and immediately notified
Sup. Radogno and Singh. Her shift relief was
Page 22

delayed until 11:34 a.m. In between her relief
arriving, Leiato contacted internal medical clinic
for medical attention, but was denied. Almost at
the same time, leiato’s non-APA male co-worker
S were treated more favorably regarding the
same issue! (21) On or about June 28, 2011,
Leiato submitted to Sup. Radogno a request for
time-off on July 8, 2011 to attend her two twin
niece’s graduations, which her attendance was
essential to her ethnic culture and family value.
However, on or about July 7, 2011, Leiato’s
request was denied by Sup. Ratcliff-Powell with
the excuse of never receiving such request while
other non-APA co-workers were treated more
favorably regarding the same issue! (22) On or
about October 28, 2011, Leiato was offered to
work an “overtime shift”, a few hours into her OT
shift, Leiato was instructed by Sups. Taylor and
Ratcliff-Powell to leave before her shift ended,
while other non-APA co-workers were treated
more favorably regarding the same issue! (23)
On or about November 18, 2011, Leiato was re­
assigned out of her regular shift post for the past
six month without change, other non-APA co­
workers were treated more favorably regarding
the same issue! (24) On or about December 20,
2011, Sup. Ratcliff-Powell denied Leiato’s earned
“sick time” pay for three (3) days, even though
Leiato had provided the proper medical
certification necessary in a timely manner! (25)
On or about March 5, 2012, Sups. Radogno and
Ratcliff-Powell re-assigned Leiato from her
regular Unit-4 to Unit*5, which was consider a
much “tougher assignment” while other nonAPA co-workers were treated more favorably
Page 23

regarding the same issue! (26) Additionally,
between 2012 to 2015, petitioner Leiato’s
supervisors including Ratcliff'Powell, Taylor,
and Recinos have filed several false allegations
against petitioner Leiato, which resulted in
Leiato’s suspension up to 20 days and placing
her in bad standing within the workplace.
District Court Proceedings
Armed with significant confirmed evidence of all
the respondents’ misconduct, petitioners in April 4,
2016 moved to set aside the summary judgment (final
summary judgment that resulted in an improper
dismissal) of the current case under Rule 60(b)
alleging “multiple errors from the district court”.
On or about April 7, 2016, the district court
denied petitioners’ “motion for reconsideration”.
Also, on December 29, 2014, petitioners filed a
“motion for leave to file fourth amended complaint” in
a timely manner on May 11, 2015. The district court
denied petitioners’ “motion to amend complaint”
suggesting it would be futile to do so (see Appendix E).
Petitioners would have provided a proposed version of
the 4th amended complaint had the court granted
leave to amend in order to draft the document. The
court never notified Petitioners of this defect and their
ability to correct the defect.

B.

Ninth Circuit Proceedings
The Ninth Circuit affirmed the judgment
concluding that the district court properly determined
that, (l) Petitioners “failed to raise a genuine dispute
of material facts as to whether defendants took
adverse action against plaintiffs, and whether
Page 24
C.

defendants had legitimate.
non-discriminatory
motives for their actions”; (2) Petitioners “contend that
the district court ignored relevant evidence or was bias
against them are unsupported by the record”; (3)
Petitioners “contend that reversal is required, this
contention is without merit”; (4) “The district court did
not abuse its discretion in awarding costs to
defendants because Lam and Leiato failed to establish
why the defendants were not entitled to costs.” Once
again it seems as if the courts have again improperly
shifted the burden of production upon the improper
party. Additional, case-law clearly holds that a
Constitutional Rights party should never be assessed
costs of the prevailing party. To do so would
inappropriately chill all potential Constitutional
Rights litigation. This is especially improper where
the prevailing party has both unclean hands and
conduct arising to a level of fraud upon the court. Such
litigants should not be rewarded for their so called
“zealous representation.” In reaching that conclusion,
the Ninth Circuit never properly considered the
totality of circumstances and material facts and
combination of the material facts provided by
petitioners; fraud upon the court from the respondents
and multiple errors by the district court would have
sufficed in order to reverse the judgment. Thus, it is
logical to assume these circumstances would have, and
should have, significantly changed the outcome of the
case.
On or about April 19, 2019, the Ninth Circuit
denied petitioners timely petition for rehearing.

Page 25

REASONS FOR GRANTING PETITION
I. May a Federal Court Ever Grant a Motion for
Relief from Judgment under Federal Rule of
Civil procedure 60(b) in a Case Involving Legal
Errors?
During the discovery process, petitioners made
multiple requests for interrogatories, special
interrogatories, admissions, production of relevant
documents and things, initial disclosures, etc.. The
respondents’ counsels failed to answer any questions
and admissions and produced zero requested
documents, resulting in petitioners being deprived of
properly relating answers and documents to
deposition questioning prior to the scheduled ten (10)
depositions in November, 2015. When petitioners
filed a motion “claims of respondents’ counsel
discovery abuse in bad faith” to the district court in
seeking the above discovery material, the district
court denied the motion upon timing grounds.
However, granted respondents for their requests for
“discovery extensions” near the same point of time.
Thus, Petitioners received no discovery from
Respondents due to uncooperative behavior and
spoliation while the courts ensured Respondents
received sufficient discovery from the Petitioners.
Fed.R.Civ.P. 60(b)(3), on multiple occasions,
respondents’ produced witnesses, also the individual
defendants knowingly filed false allegations or
declarations against petitioners, which all fall in the
purview of “fraud and misconduct” by opposing
parties. In (Pumphrev v. K.’W. ‘Thompson TooCCo., 62 F.3d
1128. 1133 (9t,h Cir.1995) (non-disclosure of existence
of videotape containing unfavorable results amounted
Page 26

to fraud upon the court, thereby justifying new trial).
The Ninth Circuit held that a federal court may
amend a judgment or order under its inherent power
when the original judgment or order was obtained
through fraud upon the court.
Although the petitioners did establish “a prima
facie case” of disparate treatment discrimination
under Title VII, Petitioners met the standard of
9dc(DonneCC (DougCas Corp. v. Cjreen, 411 U.S. 792, 802
(1973), (1) Both petitioners belong to protected class
as APAs! (2) both were performing according to
his/her employer’s legitimate expectations! (3) both
suffered adverse employment action, such as false
allegations without merit or justification leading to
unjust suspensions! (4) that other employees (of a
different classification as African American) with less
seniority and alleged significant misconduct were
treated more favorably or promoted while the
employer had discriminatory motives and retaliation
due to petitioners’ participating in relevant “protected
activities” between 2005 to 2019 of complaining about
their supervisors’ misconduct, inter alia, involving
harassment, intimidation, and
discrimination
retaliation, as well as, use of excessive force and child
abuse and neglect and sexual abuse of resident minors
in CCSF’s Juvenile Hall, [see petitioners’ “protected
activities” in Appendix F and statistical data about
employees’ misconduct.]
II. Whether the District Court Erred by Denying Pro
Se Plaintiffs’ “Motion for Leave To Amend” Arising
from “Newly Discovered Evidence” and “Continuous
and
On-going”
Discrimination,
Harassment,
Intimidation, and Retaliation?
Page 27

The district court erred by denying petitioners’
“motion for leave to amend” on May 11, 2015 [See
Appendix E] without giving notification to and
opportunity for petitioners to correct deficiencies if
any. Prior to petitioners’ motion filed on December 29,
2014, petitioner Lam asked the district court in person
on October 30, 2014 during the CMC meeting
regarding the necessity of filing an “amended
complaint” due to “newly discovered evidence” and
“on-going and continuous” instances. Nothing was
said regarding the proper steps to take or if any steps
were needed. No further requirements were given to
the Petitioners.
The district court erred in limiting petitioners’
alleged complaint to “two years” only within the
period from February 22, 2010 to March 16, 2012 and
denying petitioners’ “motion for leave to amend”
arising from “newly discovered evidence” and
“continuous on-going retaliation” and relevant
occurrences of discrimination, harassment, and
intimidation on May 11, 2015. In Johnson v. Lucent
‘LechnoCogies Inc. (9th Cir. 2011), Ninth Circuit held that
Johnson’s 42 U.S.C. §1981 retaliation claims are
subject to the four-year statute of limitation in §1658,
and not the two-year statute of limitations applicable
to personal injury actions pursuant to Cal. Code Civ.
Pro. Section 335.1. Johnson’s claim was therefore
timely.
The district court erred in denying petitioners’
“motion for leave to amend” arising from “newly
discovered evidence” and continuous on-going
retaliation. It£ In Douglas v. CA Dept of 'Youth
Authority, 271 F.3d 812 (9th Cir. 2001), Ninth Circuit
Page 28

held that Douglas claims were timely under the
continuing violation doctrine. Thus, as with the
instant case, Petitioners’ claims are also timely.
The district court erred because many courts
accord pro se litigants a certain degree of leniency,
particularly with respect to procedural elements.
See,e.g., QJT^Invs., Inc. v. City of Uscam6ia, 132 F.3d
1359, 1369 (11th Cir.1998), stating that “[c]ourts do
and should show a leniency to pro se litigants not
enjoyed by those with the benefit of a legal education”.
Thus, a presumption exists to hold pro se litigants to
less stringent requirements and with as much counsel
by the court to identify and correct technical
deficiencies. This recognized leniency was never
rightfully afforded the Petitioners in the instant case.
The district court also erred in that the U.S.
Supreme Court determined that “[i]n the absence
of ...undue delay, bad faith or dilatory motive...undue
prejudice...futility of amendment, etc.- the leave
sought should ... be ‘freely given”’, Toman v. (Davis, 371
U.S. 178, 182 (1962). Petitioners in the instant case
were not give this opportunity.
III. Whether the Ninth
Conflicts with Its Own
Precedents?

Circuit’s Decision
and This Court’s

The Ninth Circuit affirmed the judgment.
Nonetheless, the Ninth Circuit concluded that the
district court properly determined that, (l) Petitioners
“failed to raise a genuine dispute of material facts as
to whether defendants took adverse action against
plaintiffs, and whether defendants had legitimate,
non-discriminatory motives for their actions” [This
Page 29

unfairly shifted the burden upon the Petitioners
where the burden of going forward with the evidence
should have rested upon the Respondents showing
they had legitimate nondiscriminatory motives for
their actions. They could not although they tried to
“cover their tracks” with retaliatory action resulting
in adverse employment actions against the
Petitioners,' (2) Petitioners “contentions that the
district court ignored relevant evidence or was biased
against them are unsupported by the record”; (3)
Petitioners “content that reversal is required, this
contention is without merit.” However, where the
record would have been properly observed, such intent
by Respondents would have come to light; (4) “The
district court did not abuse its discretion in awarding
costs to defendants because Lam and Leiato failed to
establish why the defendants were not entitled to
costs.” Case law supports the idea that Constitutional
litigants will be accountable for their own costs.
By confirming the district court’s judgment or
decision, the Ninth Circuit has conflicted its own and
this Court’s precedents of follows:
In McCjinest v. QTJE Service Corp., 360 F.3d 1106,
1119 n.13 (9th Cir. 2004), the court held that “the
authority to demand obedience from employee” makes
a harasser a supervisor under Earagher/ECCertR.
Relying on iMcQinest, the court in (Dawson v. Ente£
InternationaC, 630 F.3d 928, 937 (9th Cir. 2011), held
that a “trainer and immediate manager” of the victim
could be a supervisor, even if the employer did not vest
him with authority over the victim’s formal
employment status. See id. A t 940.
Page 30

As these courts have also recognized, their
interpretation is consistent with that of the EEOC,
the agency vested with significant responsibility for
enforcing Title VII, educating employers about their
statutory obligations, investigating Title VII
complaints,
and promoting their consensual
resolution.
In this capacity, the EEOC issues
guidelines interpreting Title VII, which are “entitled
to great deference.” (Espinoza v. Tarah iMfg. Co., 414
U.S. 86, 94 (1973). These “constitute a body of
experience and informed judgment to which courts
and litigants may properly resort for guidance.”
QeneraC ECec. Co. v. CjiCSert, 429 U.S. 125, 142 (1976)
(quoting Skidmore v. Swift cZ Co., 323 U.S. 134, 140
(1944)). Indeed, this Court expressly relied on the
EEOC Guidelines in holding on !Moritor Savings (Bank^
TS® v. Vinson, 477 U.S. 57, 65 (1986), that harassment
is a prohibited form of discrimination.
The Court has long recognized that Title VII
should be construed with “common sense,” (BurCington
Northern eZ Santa Te dfi- Co. v. White, 548 U.S. 53, 70
(2006), and eye towards workplace reality. Thus,
there is more to Title VII’s coverage than the “terms
and conditions” of employment “in the narrow
contractual sense,” Taragher, 524 U.S. at 786, for “the
real social impact of workplace behavior often depends
on a constellation of surrounding circumstances,
expectations, and relationships which are not fully
captured by a simple recitation of the words used or
the physical acts performed." OncaCe, 523 U.S. at 8182. In light of these considerations, the Court has
repeatedly rejected unrealistic and mechanical brightline tests for standards phrased “in general terms”
Page 31

where the “[c]ontext matters...,” Burlington Northern,
548 U.S. at 69; <Ss>6inson v. Shell Oil Co., 519 U.S. 337
(1997) (recognizing that employers may not
unlawfully retaliate against former as well as current
employees); ‘National %.%, (Passenger Corp. V. (Morgan,
536 U.S. 101 (2002) (recognizing that acts occurring
outside the statutory time period may nevertheless
contribute to a hostile work environment that existed
within the statutory time period.)
(Burlington Northern is especially instructive
because, in dealing with the problem of retaliation- a
central concern motivating the (Faragher and ‘Ellerth
rule — the Court rejected rigid rules limiting
application of the Title VII anti-retaliation provision
to “ultimate employment decision,” 547 U.S. at 67, and
instead adopted a standard reaching those actions “a
reasonable employee” would have found to be
“materially adverse.” Id. At 68.
As the Court
observed, “[cjommon sense” indicates that abusing the
authority to direct daily work activities - such as by
“insist[ing] that [the victim employee] spend more
time performing the more arduous and less time
performing those that are easier or more agreeable” is “one good way to discourage an employee •kick from
bringing discrimination charges.” Id At 70-71. That
same power can prevent a victim from effectively
responding to her supervisor’s harassment, just as it
can be wielded to retaliate against a victim who has
already reported discrimination.
In Nance v. BallState Vniversity, 133 S. Ct. 2434
(2013), this Court held that an employee is a
supervisor, if the employer has empowered that
employee to take tangible employment actions against
Page 32

the victim. Petitioners did raise a genuine issue of
material fact that respondents-defendants’ multiple
named supervisors had ongoing and continuous
discriminatory, harassment, intimidation, and
retaliatory motives for their action as follows: (1)
Petitioners actively engaged in “protected activities”
prior to their supervisor’s adverse actions; (2) When
petitioners complained of their unfair treatment of
harassment
and
retaliation
to
employer
(respondents), their complaints were ignored and no
actions were taken by respondents either to rectify or
prevent the conduct; [see Appendix F of the above
petitioners’ partial “protected activities” and
allegations.] (3) The district court ignored and did not
properly
consider
the
material
facts
and
circumstances provided by petitioners or even worse
in the instant case, the courts discounted these facts
as unimportant to the Petitioners’ position; (4) The
district court abused its discretion by awarding costs
to the defendants without considering respondentsdefendants’ “unclean hands” and fraud upon the court
id In the instant case, the courts not only failed to
consider Respondents’ unclean hands and fraud upon
the court but overlooked the maxim that
Constitutional litigants bear their own costs unless
the prevailing party is the party exercising its
Constitutional rights
In Levanderv. <Pro6er, 180 F.3d 1114,1120 (9th Cir.
1999), the Ninth Circuit held that perjury committed
by a single non-party witness was so detrimental to
the entire bankruptcy proceeding that it was held to
be fraud on the court.

Page 33

In the instant case, multiple perjuries occurred
by multiple Respondents’ witnesses which both have
individually and collectively persuaded the court’s
judgment rendered in favor of the offending party.
Respondents should not have been rewarded for its
misconduct.
IV. Whether Petitioners have satisfied the
Discrimination, Harassment, Intimidation, and
Retaliation of a “Hostile Work Environment
Claim”?
Petitioners have satisfied the discrimination,
harassment, intimidation, and retaliation of a “hostile
work environment claim” based upon the following
material facts as follows: (1) Both petitioners are APA
employees; (2) There were no (zero) permanent
supervisory positions of any APA between 2008 to
2018; (3) Petitioners did in fact file at least twenty
(20) written complaints or reports aCone between
February 22, 2010 to March 16, 2012, of
discrimination, harassment, intimidation, and
retaliation creating a “hostile work environment
claim” to respondents’ agencies and relevant State
and Federal agencies. While petitioners participated
in these “protected activities”, they were subjected to
(4)
additional adverse employment actions;
Respondents did not properly monitor the workplace,
failed to respond to complaints, failed to provide a
system for registering complaints, effectively
discouraged complaints from being filed reinforced by
retaliatory action, and failed to provide a non-hostile
(5) Petitioners repeatedly
work environment;
requested for “acting supervisor and special”
assignment positions. These requests were either
Page 34

ignored or denied, even though petitioners had more
working experience and were competent and more
qualified than those selected; (6) Respondents have
harassed and retaliated petitioners by issuing
“written warnings or notices” without merit or
justification constituting a “written form of
harassment” negatively impacting their reputations
and thus making them suitable for promotion; (7)
Respondents filed false allegations resulting in
inclusion into petitioners’ permanent personnel
records of discipline and suspensions especially to
Leiato [see statistical data.]
The standard for employer liability for hostile
work environment harassment depends typically on
whether or not harasser is the victim’s supervisor. An
employer is vicariously liable for a hostile work
environment created by a supervisor. In Vance v. (Baff
State Vniversity, 133 S. Ct. 2434 (2013), the Supreme
Court rejected in part the EEOC’s definition of
supervisor. The Court held that an employee is a
supervisor, if the employer has empowered that
employee to take tangible employment actions against
the victim, i.e., to effect a significant change in
employment status, such as hiring, firing, failing to
promote, reassignment with significant different
responsibilities, or a decision causing a significant
change in benefits. The Court stated that an employer
is liable for hostile work environment harassment by
employees who are not supervisors if the employer
was negligent in failing to prevent the harassment
from taking place. In assessing such negligence, the
court explained, the nature and degree of authority
wielded by the harasser is an important factor to be
Page 35

considered in determining whether the employer was
negligent.
In the instant case, petitioners reported
multiple instances of their various supervisors’
misconduct
including,
but
not limited to,
discrimination, harassment, intimidation,
and
retaliation numerous times, but were all ignored by
respondents; however, Petitioners always experienced
inevitable retaliation from their actions or were
placed in constant fear of when the next harassment
or retaliation situation would arise.
V. Does Statistical Data Produced by
Petitioners-Plaintiffs Clearly Indicate
“Disparate Treatment” or “Selective
Treatment” Admissible in Federal Court?
Respondents and their agents in SFJPD have a
pattern and practice of “concealing, protecting,
encouraging, and tolerating” their employees’
misconduct” throughout the years while the
petitioners worked in SFJH. Respondents have good
faith reasonable believe such conduct may constitute
criminal activities meriting prosecution, conviction,
and sentencing.
When petitioners produced the
statistical data based upon their first- hand
knowledge and through their co-workers’, as well as,
written statistical data which petitioners filed and
provided hundreds of pages of alleged incidents to the
district court in detail, they were neither
acknowledged, confirmed, nor denied by respondents.
All allegations not denied by Respondents should have
been regard as facts by the courts.

Page 36

Due to limited word and page requirements of
these writ, petitioners are listing just a few actual
samples of hundreds of statistical data, which
occurred in petitioners’ worksite (SFJPD) as follows:
(1) A male high ranking supervisory employee, who
solicited a minor female resident inside SF Juvenile
Hall with intent to have sexual contact was exposed
by a female employee. The offending employee was
placed on leave due to a disability and allowed to
retired without further investigation of other
potential victims claims and facing potential penalty;
(2) On multiple occasions, petitioners reported use of
excessive force and conduct constituting “child abuse
and neglect”, as well as, child sexual abuse. Such
claims were always ignored by respondents other than
retaliation to the Petitioners ; (3) One minor youth
successfully escaped from SF Juvenile Hall due to
employees’ neglect of duty, only two out of three
employee (same position as petitioners) actually
served a three days suspension, and one of them was
later promoted; (4) A low level male supervisory
employee alleged of sexual harassment of at least five
Asian Pacific American female employees within a
short period of time, received a three days suspension
and granted three days of overtime shifts that
followed to compensate for his wage loss; (5) A low
level supervisory employee alleged of workplace
violence and dishonesty received ten days suspension,
and later promoted; (6) An employee (same position
as petitioners) alleged unlawfully transported
multiple aliens across from the Mexico border into
California, was allowed to retired without penalty; (7)
An employee (same position as petitioners) allegedly
neglected his duty and violated the Dept’s rule of
detouring the outside transport detail resulting in a
Page 37

successful escape of a minor youth. Said above
employee received no suspension, only a written
warning;
(8) An employee (same position as
petitioners) alleged possession of cocaine and loaded
weapon inside the Disneyland hotel, the above
employee was allowed to take retirement without
penalty; (9) A low level supervisory employee
allegedly involved in bank robbery, said employee was
allowed to take an early retirement without any
suspension; (10) Two minor youths successfully
escaped from SF Juvenile Hall due to at least four
employees’ neglect of duty, no one received any
penalty;
(11) An employee (same position as
petitioners) alleged using profanity or “inappropriate
language” towards other co-workers, including “N”
words on several occasion. The victim’s co-workers
reported or complained to their supervisors. The
above aggressor employee received verbal mediation
only, and latter promoted to supervisor; (12) An
employee,
who works inside SF Juvenile Hall
(petitioners’ worksite) alleged was caught in of
possession and distributing “child pornography”
material on the Internet, resulting in a conviction and
being confined to jail in federal court, the above
employee received no internal penalty; (13) An
employee (same position as petitioners) allegedly
called-in sick and then proceeded to a football season
opening game, which was reported by his co-worker of
violating the Dept’s policy of being “AWOL”, said
employee received only a written admonishment and
was later promoted; (14) An employee (same position
as petitioners) knowingly used the Dept’s “Chevron
gas card” for his personal vehicle, resulting in a
“written admonishment” without suspension; (15) It
was well known to Dept’s employees that a male
Page 38

employee had a sexual act within the worksite with
one of the minor detainees’ mothers (while a visitor),
it was covered-up, ignored or denied by respondents’
supervisor; [Jill the a6ove alleged respondent’s employees
incCuding “supervisory employees ” were all non-JUPJI
employees]. (16) Petitioner Leiato was alleged of using
“inappropriate language” during the working hours to
control the rowdy youths, when such language is
commonly used by her co-workers on a daily basis
inside SF Juvenile Hall. Leiato was suspended up to
twenty days; (17) Petitioner Lam received a written
reprimand regarding his co-operation in and reporting
of Respondents’
“concealing and covering-up”
instances of using “excessive force” and child abuse
and neglect, as well as child sexual abuse” in
petitioners’ worksite;
(18) Petitioner Lam was
suspended up to five days in reporting an incident to
Respondents of an alleged supervisor using
“inappropriate language” including “N” words on a
FCC approved radio, based on multiple witnesses, the
written report was ignored by Respondents. Just
these few incidents alone tend to prove the
Petitioners’ point.
VI. Does this Case Provides a Direct
Opportunity to Settle an Issue of Public
Interest and Matter of Public Concern?
“We must always tale sides. Neutrality helps the
oppressor, never the victim. Silence encourages the tormentor,
never the tormented” Elie Wiesel, Nobel Peace Prize
1986. Also, Qeorge OrwelCs quote: “In times of universal
deceit, telling the truth is a revolutionary act”.
This case presents an issue of “public interest”
and “matter of public concern.” The petitioners as pro
Page 39

se “civil right litigants” for the past eleven (ll) years
with very limited resources brought actions against
one of the most powerful and resourceful cities in the
United States. The petitioners risked retribution from
the respondents-defendants’ on filing numerous
complaints
of
discrimination,
harassment,
intimidation, and retaliation over the past eleven (ll)
years since filing the related case on October 10, 2008.
Petitioners spoke-up, reported, and complained
against their employer and their agents regarding the
APAs unfair treatment, sexual harassment of female
employees, various unsafe and unhealthy relevant
issues
in
respondents’ worksite,
employees’
misconduct such as, using excessive force towards
youths
inside petitioners’ worksite,
conduct
constituting “child abuse and neglect”, “child sexual
abuse”, etc. [see Appendix F petitioners’ “protected
activities”]
It is extremely rare if not unprecedented for a
“Peace Officer” similar to the petitioners to file the
multiple misconduct allegations against multiple
supervisors in the law enforcement field. The “code of
silence” or the “Big Blue Wall” is the reason, nine out
of ten respondents’ produced witnesses, who are all
“supervisory and management employee”, all say “no”
to the existence of such a “code” inside SFJH.
However, due to mainstream media and Internet
coverage, many people are now becoming aware this
is a nationwide problem in both adult and juvenile
detention facilities.
Additionally, the recent “me too” movement in
Hollywood and in areas through-out the nation;
sexual harassment and assault in the military; sexual
abuse in University of Southern California for many
Page 40

years, Olympic gymnast sexual abuse, church
allegations of sexual abuse; sexual abuse inside the
nationwide detention facilities; Bill Crosby’s sexual
battery conviction; the “black lives matter” movement,
the “code of silence” by those who knew the abuser
chose to remain silent either because of fear for their
lives or professions. Presently, this great Court has
the discretion to encourage citizens (victims) and
those individuals who have the knowledge of abuse to
speak-up or seek relief or justice, regardless of
unrealistic lapses of time that would bar their right to
provide relevant information about matters of public
importance and interest and matters of public
concern. Thus, for the reasons set for above this great
Court should now review this case.
Consequently, this issue is now ripe for review.
There are mixed motives carried out by the
supervisors’ (non-APA) conduct of discrimination,
harassment, intimidation, and retaliation against the
APA subordinates (petitioners). Unfortunately, their
co-workers chose to remain silent in fear of retaliation.
Such silence only benefits the tormentor, never the
tormented which are subjected to suffering even more.
Therefore, resolution by this Court is warranted.
ADDITIONAL CONSIDERATIONS
FAILURE TO APPLY
The district court improperly held the fact that
Plaintiffs did not apply for the promotions precluded
them from establishing a prima facie case of
discrimination as to the March 2010 promotion, citing
as an example Ratti v. City and County of San
Francisco, 1992 WL 281386 (N.D. Cal. 1992)
Page 41

(" [Application to the position is a necessary element
of raising a claim for discrimination by disparate
treatment."; Ratti in turn rests on Ibarbia v. Regents
of University of California 1987 191 Cal.App.3d
1318,1329, in that case, however, the court concluded
that the plaintiffs claims were 'purely speculative and
While the court
unsupported by the evidence.'
regarded Ratti as an example of the legal proposition
cited, Petitioners have found only a few cases
supporting this proposition, including Johnson v. Gen.
Bd. ofPension & Health Benefits of United Methodist
Church, 733 F.3d 722, 728 (7th Cir. 2013), (granting
summary judgment on a Title VII failure to promote
claim where plaintiff did not apply for higher position)
Jaburek v. Foxx (7th Cir. 2016) 813 F3d 626, 631,
(same) and Garofalo v. Vill. of Hazel Crest, 754 F. 3d
428, 439 (7th Cir.2014), which actually makes failure
to promote an element of a Title VII claim.
The vast bulk of the case law is diametrically
opposed to this statement of the law. See in particular
International Brotherhood of Teamsters v. United
States, 431 U.S. 324, 327 (1977) 'the company's
assertion that a person who has not actually applied
for a job can never be awarded seniority relief cannot
prevail, for a consistently enforced discriminatory
policy can surely deter job applications from those who
are aware of it and are unwilling to subject themselves
to the humiliation of explicit and certain
rejection...However, a non-applicant must still show
that he was a potential victim of unlawful
discrimination and that he would have applied for a
line-driver job but for the company's discriminatory
practices."
Page 42

Teamsters is described as articulating an
"intelligent principle" in Reno v. Catholic Social
Services, Inc. (1993) 509 U.S. 43, 85, and the above
point of law is specifically cited in, e.g., Abed v.
Western Dental Services, Inc. 2018 23 Cal.App.5th
726, 740, Tabor v. Hilti, Inc. (10th Circuit 2013) 703
F.3d 1206 Kolpakchi v. Principi, (5th Cir. 2004) 113
Fed.Appx. 633, Wynn v. National Broadcasting Co.,
Inc. (C.D. Cal. 2002)234F.Supp.2d 1067, 1098, O'Neil
v. AT&T Corp, (5th Cir. 2000) 208 F.3d 1007 Fox v.
Baltimore City Police Dept. (4th Circuit 2000) 201
F.3d 526. Moreover, the general reasoning is accepted
in many more cases! see, e.g. Perez v. Wells Fargo
Bank, N.A. (N.D. Cal. 2018) 2018 WL 3872793, "[a]
consistently enforced discriminatory policy can surely
deter job applications from those who are aware of it
and are unwilling to subject themselves to the
humiliation of explicit and certain rejection."
A court abuses its discretion when it makes an
error of law, Cooter & Gell v. Hartmarx Corp. (1990)
496 U.S. 384, 405.
The rule articulated in Johnson, Jaburek and
Garofalo, and at least implicitly endorsed by the 9th
Circuit in this case, amounts to a modification of the
rule of law announced in McDonald, reducing the
number of potential discrimination plaintiffs, at the
cost of the general idea that the precise requirements
of a discrimination case can vary depending on the
context and were “never intended to be rigid,
mechanized, or ritualistic.” Furnco Constr. Corp. v.
Waters, 438 U.S. 567, 577 (1978). In Furnco Justice
Rehnquist noted that the McDonnell holding "of
course, was not intended to be an inflexible rule,
Page 43

(emphasis added) as the Court went on to note that
'[t]he facts necessarily will vary in Title VII cases'", id.
The Court should take the opportunity to remind the
lower courts of the many ways that Title VII
discrimination can be shown.
In the summary judgment, the court then
stated that "plaintiff Lam must also present evidence
that other employees with qualifications similar to his
own were treated more favorably, or that the employer
had a discriminatory motive", Appx. B, and found that
Petitioner had not met this burden.
However Petitioner sought to prove the 4th
prong of McDonnell by reciting the following facts: l.
In June 2013, at least ten 'permanent position’
counselors were appointed or promoted, the majority
of whom were African Americans, and 2. In December
2014, four African American acting supervisors were
promoted to permanent supervisor positions, The
court dismissed these statements, as they "relate only
to the promotion to permanent positions, not to the
appointment to acting positions." There is no
difference in the responsibilities attendant to each
position.
EVIDENCE PRECLUSION
The court also refused to consider plaintiff
Lam's failure to promote claim arising out of conduct
that occurred before February 2010, on the ground
these were barred by res judicata. Res Judicata may
bar recovery on these claims, though not the
introduction of facts supporting the claims, at least
Page 44

where such facts increase
discriminatory intent.

the

likelihood

of

The legal question here might be phrased as
follows: can evidence suggestive of discrimination at
tl, though insufficient to support the conclusion that
discrimination was more likely than not in case 1, be
utilized again to prove discrimination at t2 in case 2,
where there are additional facts adduced at t2 to
support the claim of discrimination? Res judicata
applies to issues and claims rather than items of
evidence! collateral estoppel, like the related doctrine
of res judicata, has the dual purpose of protecting
litigants from the burden of relitigating an identical
issue, Parklane Hosiery Co., Inc. v. Shore (1979) 439
U.S. 322. The doctrine of claim preclusion prohibits
“successive litigation of the very same claim” by the
same parties; Whole Woman's Health v. Hellerstedt
(2016) 136 S.Ct. 2292, 2305. Discrimination is often
proven by consideration of the totality of facts. It
should be obvious that facts of any probative value at
all should not be ignored for the latter claim, simply
because they were introduced in litigation in support
of the former claim.
IDENTICALLY POSITIONED
Regarding the refusal to consider facts
pertaining to permanent supervisors, the court was
seemingly operating according to some unstated
principle as to appropriate comparators, though in
any event amounts to acceptance of the proposition
that a plaintiff cannot prove discrimination for failure
to promote for a specific position, by proving company­
wide discrimination.
Page 45

The ruling arguably comports with, e.g., the
statement in Wards Cove Packing Co., Inc. v. Atonio,
490 US. 642, 656 (1989) "[T]he plaintiffs burden in
establishing a prima facie case goes beyond the need
to show that there are statistical disparities in the
employer's work force. The plaintiff must begin by
identifying the specific employment practice that is
challenged." In Wards Cove the Court stated: held
that the proper comparison is not between the racial
composition of a cannery work force and the "at-issue"
work force, but rather between the racial composition
of the labor market for at-issue jobs and the racial
composition of the at-issue work force:
"It is clear to us that the Court of Appeals'
acceptance of the comparison between the racial
composition of the cannery work force and that of the
non-cannery work force, as probative of a prima facie
case of disparate impact in the selection of the latter
group of workers, was flawed for several reasons. Most
obviously, with respect to the skilled non-cannery jobs
at issue here, the cannery work force in no way
reflected “the pool of qualified job applicants” or the
“qualified population in the labor force.” Measuring
alleged discrimination in the selection of accountants,
managers, boat captains, electricians, doctors, and
engineers—and the long list of other “skilled” non­
cannery positions found to exist by the District ...by
comparing the number of nonwhites occupying these
jobs to the number of nonwhites filling cannery
worker positions is nonsensical. If the absence of
minorities holding such skilled positions is due to a
dearth of qualified nonwhite applicants (for reasons
that are not petitioners' fault), petitioners' selection
methods or employment practices cannot be said to
Page 46

have had a “disparate impact” on nonwhites", Wards
Cove, supra, at 650-652.
Of course this is true for the example cited,
though the opinion takes the matter out of the hands
of the jury. It is also possible that instances of
discrimination reflect a company policy, where there
may not be comparators for many specific instances of
discrimination. There is no realistic chance of ending
discrimination by implementing a rule of identical
positioning, and thus embracing the sort of rigidity
expressly rejected in other Court decisions2.
The identification of the 'at issue' work force is
not of course an interpretation of the statute. Title
VII merely renders it unlawful "for an employer ... to
fail or refuse to hire or to discharge any individual, or
otherwise to discriminate against any individual with
respect to his compensation, terms, conditions, or
privileges of employment, because of such individual's
race, color, religion, sex, or national origin." 42 U.S.C.
§ 2000e-2(a)(l). The rigidity explicitly rejected in
Furnco is embraced in Wards Cove, as well as Rioux
v. City ofAtlanta, Ga., 520 F 3d 1269, 1280 (l 1th Cir.
2008) and Lewis v. City of Union City, Ga. (llth Cir.

2 These portions of the opinion appear to survive the Civil Rights
Act of 1991, abrogating the holding of Wards Cove, see Atonio v.
Wards Cove Packing, Inc., 10 F. 3d 1485, 1491 (9th Cir. 1993),
though should not be read as a per se prohibition against
considering a company's discriminatory actions outside of some
narrowly defined category.

Page 47

2019) 918 F3d 1213 (holding that comparators be
"similarly situated in all material respects").
Even if one accepts the Court's analysis in
Wards Cove, there are no good grounds for applying
any such distinction to acting and permanent
The distinction in this case is
supervisors.
particularly arbitrary, as there is no difference at all
in the responsibilities of the supervisors, only the
duration of their supervisorial authority.
EMPLOYER OPINIONS
In granting summary judgment, the court also
found that defendant CCSF presented a legitimate,
non-discriminatory reason for any alleged adverse
action — namely, that more qualified candidates
would have been appointed over plaintiff Lam.
Though the reasons are quite general, "performance
issues" such as his "propensity to agitate the youth
detainees, for example, by having inappropriate
conversations with them,"--a conclusory remark if
there ever was one, as well as "the fact that he "did
not have the respect of his peers," which arguably
supports the discrimination claim, and the very vague
determinations that Lam "demonstrated poor
judgment with respect to decisions that had safety
implications," he "repeatedly failed to adhere to
department protocols". It is all too easy to imagine
incompetent and bigoted supervisory personnel
drawing conclusions about thought processes and
decision-making principles they do not understand,
and no reason whatsoever to simply take their word
for it. The court stated "if CCSF had merely stated
that there were more qualified candidates, that would
Page 48

be too "nebulous" to constitute a legitimate, nondiscriminatory reason. However, CCSF provided a
declaration setting forth specific performance issues."
While allowing CCSF to employ such
subjective, vague, and difficult to disprove opinions,
the court rejected Lam's statement that his work
performance was actually "better than satisfactory,"
stating that, if he had presented evidence to support
that assertion, he could have created a triable issue of
fact. No such evidentiary burdens were placed on
CCSF personnel3.
The goal is, as the Court stated in Texas Dept,
of Community Affairs v. Burdine, 450 US. 248’ 255,
n. 8 (1981), "to sharpen the inquiry into the elusive
factual question of intentional discrimination." Civil
Rights legislation "was designed to make race
irrelevant in the employment market," Griggs v. Duke
Power Co., 401 U.S. 424, 436 (1971). The opinion is
not troublesome merely because it seems unfair to
plaintiffs. It is troublesome because it appears to be
backed by rules of law institutionalizing unfairness.
CONCLUSION
For the above mentioned, the petition for a writ of
certiorari should be granted.

3 The court also discounted Lam's contention that documents
were destroyed, ignoring the more concrete supporting statement
that the City and County produced no documents whatsoever in
response to discovery and FOIA requests.

Page 49

Dated: September 9, 2019.
Respectfully submitted,

ALFRED LAM, PAULA LEIATO
P.O. Box 16376,
San Francisco, CA 94116
(415) 992-0071
In Pro Per

Page 50

SUPREME COURT OF THE
UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, D. C. 20543-0001
I declare under penalty of perjury that the foregoing
is true and correct.
September 9, 2019
rs”/ Alfred Lam, Paula Leiato
ALFRED LAM PAULA LEIATO

Page 51

